UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

MAY 11 2021
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

MICHAEL E. HARRIS,

No.

Plaintiff-Appellant,
v.
ANTHONY AKIDI, Owner Havenly Homes
Foundation, in his official and his individual
capacities,

21-55035

D.C. No.
2:20-cv-l 1348-DMG-MRW
Central District of California,
Los Angeles
ORDER

Defendant-Appellee.
Before: PAEZ, BERZON, and HUNSAKER, Circuit Judges.
Upon a review of the record and the response to the court’s February 18,
2021 order, we conclude this appeal is frivolous. We therefore deny appellant’s
motion to proceed in forma pauperis (Docket Entry No. 3), see 28 U.S.C.
§ 1915(a), and dismiss this appeal as frivolous, pursuant to 28 U.S.C. § 1915(e)(2)
(court shall dismiss case at any time, if court determines it is frivolous or
malicious).
DISMISSED.

AT/MOATT

APPENDIX A

Case: 21-55035, 02/18/2021, ID: 12008780, DktEntry: 4-1, Page 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
FEB 18 2021
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

MICHAEL E. HARRIS,
Plaintiff-Appellant,
v.

ANTHONY AKIDI, Owner Havenly Homes
Foundation, in his official and his individual
capacities,

No.

21-55035

D.C. No.
2:20-cv-l 1348-DMG-MRW
Central District of California,
Los Angeles
ORDER

Defendant-Appellee.
A review of the record reflects that this appeal may be frivolous. This court
may dismiss a case at any time, if the court determines the case is frivolous. See
28U.S.C. § 1915(e)(2).
Within 35 davs after the date of this order, appellant must:
(1) file a motion to dismiss this appeal, see Fed. R. App. P. 42(b), OR
(2) file a statement explaining why the appeal is not frivolous and should go
forward.
If appellant does not respond to this order, the Clerk will dismiss this appeal
for failure to prosecute, without further notice. See 9th Cir. R. 42-1. If appellant
files a motion to dismiss the appeal, the Clerk will dismiss this appeal, pursuant to
Federal Rule of Appellate Procedure 42(b). If appellant submits any response to

AT/MOATT

Case: 21-55035, 02/18/2021, ID: 12008780, DktEntry: 4-1, Page 2 of 2

this order other than a motion to dismiss the appeal, the court may dismiss this
appeal as frivolous, without further notice.
The briefing schedule for this appeal remains stayed.
The Clerk shall serve on appellant: (1) a form motion to voluntarily dismiss
the appeal, and (2) a form statement that the appeal should go forward. Appellant
may use the enclosed forms for any motion to dismiss this appeal or statement that
the appeal should go forward.
t

FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Allison Taylor
Deputy Clerk
Ninth Circuit Rule 27-7

AT/MOATT

2 •

21-55035

JS-6
t

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CASE NUMBER

Michael E. Harris,

CV 20-11348 DMG (MRW)
PLAINTIFF(S)

v.

ORDER RE REQUEST TO PROCEED
IN FORMA PAUPERIS

Anthony Akidi,
DEFENDANT(S)

IT IS ORDERED that the Request to Proceed In Forma Pauperis is hereby GRANTED.

Date

United States Magistrate Judge

IT IS RECOMMENDED that the Request to Proceed In Forma Pauperis be DENIED for the following reason(s):
□ Inadequate showing of indigency

EJ District Court lacks jurisdiction

0 Legally and/or factually patently frivolous

□ Immunity as to_____________

□ Other:
«4
Comments:
Plaintiff purports to bring a federal civil rights claim [42 USC 1983] against his landlord for spraying bleach on
floor of apartment. Complaint does not allege that landlord is a state actor subject to potential liability under Sec.
1983. Further, Los Angeles plaintiff cannot invoke diversity of citizenship jurisdiction against Pomona-based
defendant for supplemental state claims.

December 16,2020

Michael R. Wilner
United States Magistrate Judge

Date

IT IS ORDERED that the Request to Proceed In Forma Pauperis is hereby:

n

granted

EZ] DENIED (see comments above). IT IS FURTHER ORDERED that:
□ Plaintiff SHALL PAY THE FILING FEES IN FULL within 30 days or this case will be dismissed.
EH This case is hereby DISMISSED immediately.
□ This case is hereby REMANDED to state court.
■December 16.
Date
CV-73 (08/16)

7070
Dolly M. G/5fUnited States District Judge
ORDER RE REQUEST TO PROCEED IN FORMA PA VPERJS

APPENDIX B

U.S. Department of Justice
Civil Rights Division
JFF:ma:kyb
144-12C-0
1073973

Criminal Section - PHB
950 Penns)’lvania Ave, NW
Washington DC 20530

Mr. Michael E. Harris
1439 Carol Drive
Pomona, CA 91767-4573

SEP 1 b 2019

Dear Mr. Harris:
Thank you for your correspondence. The Civil Rights Division relies on information
from community members to identify potential civil rights violations. The Federal Bureau of
Investigation and other law enforcement agencies conduct investigations for the Division.
Therefore, you may want to contact your local FBI office or visit www.FBl.gov.
The Criminal Section is one of several Sections in the Civil Rights Division of the U.S.
Department of Justice. We are responsible for enforcing federal criminal civil rights statutes.
The Criminal Section prosecutes criminal cases involving:
•
•
•
•
•

Civil rights violations by persons acting under color of law, such as federal, state,
or other police officers or corrections officers;
Hate crimes;
Force or threats intended to interfere with religious activities because of their
religious nature;
Force or threats intended to interfere with providing or obtaining reproductive
health services and
Human trafficking in the form of coerced labor or commercial sex.

We cannot help you recover damages or seek any other personal relief. We also cannot
assist you in ongoing criminal cases, including wrongful convictions, appeals, or sentencing. For
more detailed information about the Criminal Section or the work wc do, please visit our web
page: www.iustice.gov/crt/about/crm/.
We will review your letter to decide whether it is necessary to contact you for additional
information. We do not have the resources to follow-up on or reply to every letter. If your
concern is not within this Section’s area of work, you may wish to consult the Civil Rights
Division web page to determine whether another Section of the Division may be able to address
your concerns: www.iustice.gov/crt. Again, if you are writing to report a crime, please contact
the federal and/or state law enforcement agencies in your local area, such as the Federal Bureau
of Investigation or your local police department or sheriffs office.
Sincerely,
/s/

The Criminal Section

appendix c

U.S. Department of Justice
Civil Rights Division
JFF:ma:rc
DJ 144-12C-0
1074068

Criminal Section - PHB
150 M Street NE
Washington DC 20002

Mr.' Michael E. Harris
1439 Carol Drive
Pomona, CA 91767

OCT 0 2019

Dear Mr. Harris:
Thank you for your correspondence. The Civil Rights Division relies on information
from community members to identify potential civil rights violations. The Federal Bureau of
, Investigation and other law enforcement agencies conduct investigations for the Division.
Therefore, you may want to contact your local FBI office or visit www.FBI.gov.
The Criminal Section is one of several Sections in the Civil Rights Division of the U.S.
Department of Justice. We are responsible for enforcing federal criminal civil rights statutes.
The Criminal Section prosecutes criminal cases involving:
•
•
•
•
•

Civil rights violations by persons acting under color of law, such as federal, state,
or other police officers or corrections officers;
Hate crimes;
Force or threats intended to interfere with religious activities because of their
religious nature;
Force or threats intended to interfere with providing or obtaining reproductive
health services and
Human trafficking in the form of coerced labor or commercial sex.

We cannot help you recover damages or seek any other personal relief. We also cannot
assist you in ongoing criminal cases, including wrongful convictions, appeals, or sentencing. For
more detailed information about the Criminal Section or the work we do, please visit our web
page: www.iustice.gov/cri/about/oi-m/.
We will review your letter to decide whether it is necessary to contact you for additional
information. We do not have the resources to follow-up on or reply to every letter. If your
concern is not within this Section’s area of work, you may wish to consult the Civil Rights
Division web page to determine whether another Section of the Division may be able to address
your concerns: www.iustice.gov/crt. Again, if you are writing to report a crime, please contact
the federal and/or state law enforcement agencies in your local area, such as the Federal Bureau
of Investigation or your local police departments sheriffs office.
Sincerely,
/s/

The Criminal Section

APPENDIX D

U.S. Department of Justice
Civil Rights Division
JFF:ma:rc
DJ 144-12C-0
1073954

Criminal,Section
150 M Street NE
Washington DC 20002

Mr. Michael E. Harris
1439 Carol Drive
Pomona, CA 91767
Dear Mr. Harris:
Thank you for your correspondence. The Civil Rights Division relies on information
from community members to identify potential civil rights violations. The Federal Bureau of
Investigation and other law enforcement agencies conduct investigations for the Division.
Therefore, you may want to contact your local FBI office or visit www.FBl.gov.
The Criminal Section is one of several Sections in the Civil Rights Division of the U.S.
Department of Justice. We are responsible for enforcing federal criminal civil rights statutes.
The Criminal Section prosecutes criminal cases involving:
•
•
•
•
•

Civil rights violations by persons acting under color of law, such as federal, state,
or other police officers or corrections officers;
Hate crimes;
Force or threats intended to interfere with religious activities because of their
religious nature;
Force or threats intended to interfere with providing or obtaining reproductive
health services and
Human trafficking in the form of coerced labor or commercial sex.

We cannot help you recover damages or seek any other personal relief. We also cannot
assist you in ongoing criminal cases, including wrongful convictions, appeals, or sentencing. For
more detailed information about the Criminal Section or the work wc do, please visit our web
page: www.iustice.gov/crt/about/crm/.
We will review your letter to decide whether it is necessary to contact you for additional
information. We do not have the resources to follow-up on or reply to every letter. If your
concern is not within this Section’s area of work, you may wish to consult the Civil Rights
. Division web page to determine whether another Section of the Division may be able to address
your concerns: www.iustice.gov/crt. Again, if you are writing to report a crime, please contact
the federal and/or state law enforcement agencies in your local area, such as the Federal Bureau
of Investigation or your local police department or sheriffs office.
Sincerely,
/s/

The Criminal Section

APPENDIX E

U.S. Department of Justice
Civil Rights Division
JFF:ma:rc
DJ 144-12C-0
1074057

Criminal Section
I SOM Street NE
Washington DC 20002

Mr. Michael E. Harris
1439 Carol Drive
Pomona, CA 91767

QEC202O®

Dear Mr. Harris:
Thank you for your correspondence. The Civil Rights Division relies on information
from community members to identify potential civil rights violations. The Federal Bureau of
Investigation and other law enforcement agencies conduct investigations for the Division.
Therefore, you may want to contact your local FBI office or visit www.FBI.gov.
The Criminal Section is one of several Sections in the Civil Rights Division of the U.S.
Department of Justice. We are responsible for enforcing federal criminal civil rights statutes.
The Criminal Section prosecutes criminal cases involving:
•
•
•
•
•

Civil rights violations by persons acting under color of law, such as federal, state,
or other police officers or corrections officers;
Hate crimes;
Force or threats intended to interfere with religious activities because of their
religious nature;
Force or threats intended to interfere with providing or obtaining reproductive
health services and
Human trafficking in the form of coerced labor or commercial sex.

We cannot help you recover damages or seek any other personal relief. We also cannot
assist you in ongoing criminal cases, including wrongful convictions, appeals, or sentencing. For
more detailed information about the Criminal Section or the work we do, please visit our web
page: www.iustice.gov/crt/about/crm/.
We will review your letter to decide whether it is necessary to contact you for additional
information. We do not have the resources to follow-up on or reply to every letter. If your
concern is not within this Section’s area of work, you may wish to consult the Civil Rights
Division web page to determine whether another Section of the Division may be able to address
your concerns: www.iustice.gov/crt. Again, if you are writing to report a crime, please contact
the federal and/or state law enforcement agencies in your local area, such as the Federal Bureau
of Investigation or your local police department or sheriffs office.
Sincerely,
/s/
The Criminal Section

APPENDIX F

